No. 19-1177
IN THE

Supreme Court of the United States
AMERICAN INSTITUTE FOR INTERNATIONAL STEEL, INC.,
SIM-TEX, LP, and KURT ORBAN PARTNERS, LLC
Petitioners,
v.
UNITED STATES and MARK A. MORGAN, ACTING
COMMISSIONER, UNITED STATES CUSTOMS AND
BORDER PROTECTION,
Respondents.
On Petition for a Writ of Certiorari to the
U.S. Court of Appeals for the Federal Circuit
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
Richard A. Samp
(Counsel of Record)
John J. Vecchione
New Civil Liberties Alliance
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
rsamp@ncla.legal

April 27, 2020

QUESTION PRESENTED
Is section 232 of the Trade Expansion Act of
1962, as amended, 19 U.S.C. § 1862, facially
unconstitutional on the ground that it lacks any
boundaries that confine the President’s discretion to
impose tariffs on imported goods and, therefore,
constitutes an improper delegation of legislative
authority and a violation of the principle of separation
of powers established by the Constitution?

ii

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
INTERESTS OF AMICUS CURIAE . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . 9
I.

THE COURT SHOULD REVISIT THE REVIEW
STANDARDS IT APPLIES TO CLAIMS ARISING
UNDER THE DELEGATION DOCTRINE . . . . . . . . 9
A.

The
Prohibition
Against
Delegation of Legislative Power Is
Universally Recognized, yet
Adherence to the “Intelligible
Principle” Standard Renders the
Prohibition Unenforceable . . . . . . . . . . 9

B.

Review Is Warranted to Consider
Adopting a Standard that Focuses
on Whether a Statute Enables
Courts to Test Executive-Branch
Conduct Against Ascertainable
Standards . . . . . . . . . . . . . . . . . . . . . 12

C.

Reviving Judicial Review of
Delegation-Doctrine Claims Will
Not Hamper Government’s Ability
to Operate Effectively . . . . . . . . . . . . . 15

iii

Page(s)
II.

THE PETITION IS A PARTICULARLY
ATTRACTIVE VEHICLE FOR RECONSIDERING
THE DELEGATION DOCTRINE . . . . . . . . . . . . . . 17

III.

ALGONQUIN IS NOT A BARRIER TO
GRANTING REVIEW . . . . . . . . . . . . . . . . . . . . . 20

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

iv

TABLE OF AUTHORITIES
Page(s)
Cases:
Agostini v. Felton,
521 U.S. 203 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . 8
A.L.A. Schecter Poultry Corp. v. United States,
295 U.S. 495 (1935) . . . . . . . . . . . . . . . . . . . . . . . . 10
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007) . . . . . . . . . . . . . . . . . . . . . . . . 15
Federal Energy Admin. v. Algonquin SNG, Inc.,
426 U.S. 548 (1976) . . . . . . . . . . . . 3, 4, 8, 9, 12, 14,
20, 21, 22, 23, 24
Gundy v. United States,
139 S. Ct. 2116 (2019) . . . . . . . . . . . . . . . . . . passim
Industrial Union Dept., AFL-CIO v. American
Petroleum Inst., 448 U.S. 607 (1980) . . . . . . . . . . 13
J.W. Hampton, Jr., & Co. v. United States,
276 U.S. 394 (1928) . . . . . . . . . . . . . . . . . . 10, 11, 16
Knick v. Township of Scott,
139 S. Ct. 2162 (2019) . . . . . . . . . . . . . . . . . . . . . . 22
Lichter v. United States,
334 U.S. 742 (1948) . . . . . . . . . . . . . . . . . . . . . . . . 12
Marshall Field & Co. v. Clark,
143 U.S. 649 (1892) . . . . . . . . . . . . . . . . 5, 10, 12, 16
Miller v. Mayor of New York,
109 U.S. 385 (1883) . . . . . . . . . . . . . . . . . . . . . . . . 13
Mistretta v. United States,
488 U.S. 361 (1989) . . . . . . . . . . . . . . . . . . . . . 13, 17
Panama Refining Co. v. Ryan,
293 U.S. 388 (1935) . . . . . . . . . . . . . . . . . . . . . . . . 10
Paul v. United States,
140 S. Ct. 342 (2019) . . . . . . . . . . . . . . . . . . . . . . . . 9
Payne v. Tennessee,
501 U.S. 808 (1991) . . . . . . . . . . . . . . . . . . . . . . . 22

v

Page(s)
Ramos v. Louisiana,
2020 WL 1906545 (S. Ct., Apr. 20, 2020). . . . . . . 24
Seminole Tribe of Florida v. Florida,
517 U.S. 44 (1996) . . . . . . . . . . . . . . . . . . . . . . . . . 22
Wayman v. Southard,
23 U.S. (10 Wheat.) 1 (1825). . . . . . . . . . . . . . 10, 13
Yakus v. United States,
321 U.S. 414 (1944) . . . . . . . . . . 6, 13, 14, 15, 16, 19
Statutes and Constitutional Provisions:
U.S. Const., art. I, § 1
(“Vesting Clause”) . . . . 2, 3, 5, 10, 12, 19, 21, 23, 24
U.S. Const., art. I, § 8. . . . . . . . . . . . . . . . . . . . . . . . 10
U.S. Const., art. II . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Sentencing Reform Act of 1984 . . . . . . . . . . . . . . . . 17
Tariff Act of 1922 . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Trade Expansion Act of 1962. . . . . . . . . . . . . . . . . . . 2
§ 232, 19 U.S.C. § 1862 . . . . . . . . . . . . . passim
§ 232(c)(1)(A), 19 U.S.C. § 1862(c)(1)(A) . . . . . 2
§ 232(d), 19 U.S.C. § 1862(d) . . . . . . . . 2, 6, 13,
18, 19, 23
§ 232(c) (1988) . . . . . . . . . . . . . . . . . . . . . . . . 23
19 U.S.C. § 3203(b). . . . . . . . . . . . . . . . . . . . . . . . . . 17

vi

Page(s)
Miscellaneous:
American Inst. for Int’l Steel, Inc. v. United
States, No. 18-1317, cert. denied, 139 S. Ct.
2748 (2019) (Brief for United States in
Opposition) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
George Bronz, The Tariff Commission as a Regulatory Agency, 61 Colum. L. Rev. 463 (1961) . . . . 17
Declaration of Independence . . . . . . . . . . . . . . . . . . 10
The Federalist No. 47, p. 302 (C. Rossiter ed.
1961) (Madison). . . . . . . . . . . . . . . . . . . . . . . . . . . 24
David Schoenbrod, The Delegation Doctrine: Could
the Court Give It Substance?, 83 Mich. L. Rev.
1223 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

INTERESTS OF AMICUS CURIAE
The New Civil Liberties Alliance (NCLA) is a
nonprofit, non-partisan civil-rights organization
devoted to defending constitutional freedoms from
violations by the administrative state. 1 The “civil
liberties” of the organization’s name include rights at
least as old as the U.S. Constitution itself, such as jury
trial, due process of law, the right to be tried in front of
an impartial and independent judge, and the right to
live under laws made by the nation’s elected
lawmakers through constitutionally prescribed
channels. Yet these self-same rights are also very
contemporary—and in dire need of renewed
v i ndi ca t i o n — p r e c i s e l y b e c a u s e C o n g re s s,
administrative agencies, and even sometimes the
courts have neglected them for so long.
NCLA aims to defend civil liberties—primarily
by asserting constitutional constraints on the
administrative state. Although Americans still enjoy
the shell of their Republic, there has developed within
it a very different sort of government—a type, in fact,
that the Constitution was designed to prevent. This
unconstitutional administrative state within the
Constitution’s United States is the focus of NCLA’s
concern.

1

Pursuant to Supreme Court Rule 37.6, NCLA states that
no counsel for a party authored this brief in whole or in part; and
that no person or entity, other than NCLA and its counsel, made
a monetary contribution intended to fund the preparation and
submission of this brief. More than 10 days prior to filing this
brief, NCLA notified counsel for the parties of its intent to file. All
parties have consented to the filing.

2
Section 232 of the Trade Expansion Act of 1962,
as amended, 19 U.S.C. § 1862, authorizes the
President to determine whether imports of an article
are impairing the national security and, if so, to make
any adjustments in imports that, in the judgment of
the President, should be taken “so that such imports
will not threaten to impair the national security.”
§ 232(c)(1)(A). The Act defines “national security”
(§ 232(d)) in an all-encompassing manner that enables
the President to classify the import of any article as an
impairment of national security—and thereby
delegates to the Executive Branch unchecked
legislative authority to increase tariffs on imports.
NCLA is concerned that if the courts reject claims that
§ 232 is an unconstitutional delegation of Congress’s
legislative power, then Article I’s grant of “[a]ll
legislative Powers” to Congress and Congress alone
will be rendered a nullity. NCLA takes no position on
the proper level of steel tariffs.
STATEMENT OF THE CASE
In March 2018, President Trump, invoking his
authority under § 232, imposed a 25% tariff on all
imported steel articles from all countries except
Canada and Mexico. Those tariffs are in addition to
other existing tariffs on imported steel—including 164
remedial tariffs issued under antidumping and
countervailing duty laws. The President later made
several country-by-country adjustments to the § 232
tariffs, exempting several additional countries (without
explaining why steel imports from those countries
threaten national security less than imports from other
countries) and temporarily setting the tariff on steel
articles from Turkey at 50%.

3
Petitioners American Institute for International
Steel, et al. (collectively, AIIS) filed a facial challenge
to the tariff in the U.S. Court of International Trade.
AIIS argued that § 232 constitutes an improper
delegation of legislative authority, in violation of
Article I, § 1 of the U.S. Constitution.
A three-judge panel of that court rejected the
challenge. Pet. App. 24-59. Rather than conducting its
own independent review of the statute’s
constitutionality, the court held that it was “bound by
Algonquin” to reject AIIS’s challenge. Id. at 32 (citing
Federal Energy Admin. v. Algonquin SNG, Inc., 426
U.S. 548 (1976)). The court nonetheless recognized
that “the broad guideposts of subsections (c) and (d) of
section 232 bestow flexibility on the President and
seem to invite the President to regulate commerce by
way of means reserved for Congress, leaving very few
tools beyond his reach.” Id. at 39-41. The court added:
[I]dentifying the line between regulation
of trade in furtherance of national
security and an impermissible
encroachment into the role of Congress
could be elusive. ... Nevertheless, such
concerns are beyond this court’s power to
address, given the Supreme Court’s
decision in Algonquin.
Id. at 41-42.
Judge Katzmann issued an opinion dubitante,
concurring in the judgment. He stated, “[I]t is difficult
to escape the conclusion that [§ 232] has permitted the
transfer of power to the President in violation of the

4
separation of powers.” Pet. App. 58. He determined
that § 232 “provides virtually unbridled discretion to
the President with respect to the power over trade that
is reserved by the Constitution to Congress,” noting
that the statute provides “no guidance ... on the
expansive definition of ‘national security’ in the
statute—a definition so broad that it not only includes
national defense but also encompasses the entire
national economy.” Id. at 57. He nonetheless
concluded, “[W]e are bound by Algonquin, and thus I
am constrained to join the judgment entered today.”
Id. at 59.
The Federal Circuit affirmed. Pet. App. 1-22.
The court stated that this Court’s constitutional ruling
in Algonquin was “binding precedent” because
Algonquin’s “rejection of the nondelegation-doctrine
challenge to section 232 was a necessary step in the
Court’s rationale for ultimately construing the statute
as it did.” Id. at 16. The court also suggested that the
President’s authority to impose the 25% tariff arguably
was strengthened by his “independent” constitutional
authority over foreign affairs and by Congress’s
evident support of his right to exercise such authority
(as demonstrated by its adoption of § 232). Id. at 19.
SUMMARY OF ARGUMENT
The Petition raises issues of exceptional
importance. The Court has long recognized that the
delegation doctrine—that Congress may not delegate
its legislative powers to the President or anyone
else—“is a principle universally recognized as vital to
the integrity and maintenance of the system of
government ordained by the constitution.” Marshall

5
Field & Co. v. Clark, 143 U.S. 649, 692 (1892). Yet
despite congressional adoption of numerous statutes
that confer vast decision-making authority on the
Executive Branch, not a single federal statute has been
invalidated under the delegation doctrine in 85 years. 2
The absence of successful challenges is largely
attributable to the highly deferential review standard
routinely applied by federal courts in delegation cases
since the late 1940s. Under that standard, a federal
statute is not deemed to delegate legislative authority
so long as it contains an “intelligible principle” to guide
the conduct of those authorized to administer the law.
Over time, an “intelligible principle” has come to be
understood as including virtually any statutory
language that directs administrators to consider one or
more factors when determining how to carry out their
duties, even when administrators are afforded
unconstrained discretion to determine what role those
factors should play in their ultimate decisions.
NCLA urges the Court to grant review to
consider replacing the “intelligible principle” standard
with one that puts more teeth into the delegation
2

NCLA refers to the “delegation doctrine” to conform to
the terminology used by the parties and the courts. NCLA
nonetheless considers that term a misnomer and urges its
eventual abandonment. Congress’s transfer of lawmaking powers
to the Executive Branch is not accurately described as a
“delegation” of authority because the powers transferred by
statute are not easily reclaimed. And statutes that divest
Congress of legislative powers violate the Constitution itself, not
a mere judicial “doctrine.” See Art. I, § 1 (“All legislative Powers
herein granted shall be vested in a Congress of the United States”)
(emphasis added) (hereinafter, the “Vesting Clause”).

6
doctrine and thereby protects the Constitution’s
separation-of-powers principles. For example, the
Court should consider adopting a standard it
articulated in 1944: whether “there is an absence of
standards for the guidance of the Administrator’s
action, so that it would be impossible in a proper
proceeding to ascertain whether the will of Congress
has been obeyed.” Yakus v. United States, 321 U.S.
414, 426 (1944). What § 232 creates is an absolute
transfer of Congress’s tariff power to the Executive
Branch; the Court must give such expansive transfers
of power a hard look.
The Petition is an excellent vehicle for
considering whether to jettison the “intelligible
principle” test. Federal courts have had little difficulty
concluding that § 232 passes constitutional muster
under the lax “intelligible principle” standard. After
all, § 232(d) sets out a broad array of factors that the
President is directed to take into account in
determining whether to impose supplemental tariffs
under § 232. But no standard should allow such a
result; under any standard faithful to the Constitution,
the statute should be understood to delegate legislative
power to the President because it grants the President
free rein to adopt any tariffs he deems appropriate.
Under the test articulated in Yakus, § 232 is
inconsistent with the delegation doctrine because the
United States has been unable to identify any tariffs
that (under the all-encompassing standards set out in
§ 232(d)) could not be classified as necessary to prevent
impairment of national security.
Adopting the Yakus standard will not hamper
the ability of government to operate effectively. Many

7
of the Court’s delegation cases likely would have
reached the same result if decided under that standard
instead of the intelligible-principle standard.
The delegation doctrine has never been
understood to bar Congress from conferring
discretionary authority on administrators to determine
how a statute should be executed. Congress could still
delegate fill-up-the-details decision-making and factfinding responsibilities—so long as Congress makes
clear in advance the policy determinations that will
flow from specific factual findings. But by granting
review to consider abandoning the intelligible-principle
standard, the Court will have the opportunity to
consider how best to ensure that the courts begin to
effectively police the Article I requirement that
Congress—and Congress alone—exercises all the
federal government’s legislative powers.
The Petition is a particularly good vehicle for
reconsidering the approach to delegation-doctrine
claims because § 232 is not susceptible of a saving
construction that would permit this case to be resolved
without addressing the constitutional claims. In
Gundy v. United States, 139 S. Ct. 2116 (2019), the
Court construed the statute at issue as imposing strict
limits on the Attorney General’s authority with respect
to registration of convicted sex offenders—and thus
avoided any need to determine precisely when statutes
granting authority to Executive Branch officials cross
the line into unconstitutional delegation of legislative
powers. 139 S. Ct. at 2123-24 (plurality). The United
States has not suggested any similar limiting
construction of § 232, and none exists.

8
The Court’s previous consideration of § 232 in its
1976 Algonquin decision is not a reason to decline
review of this case. Whether § 232 violated the
delegation doctrine was not one of the questions
presented in Algonquin. The plaintiffs did not facially
challenge the constitutionality of § 232; rather, they
argued that the President’s remedial powers under the
statute were limited to imposing quotas (not tariffs) on
imports. So there is reason to doubt that Algonquin’s
statements regarding the delegation doctrine were part
of the Court’s holding.
But review is warranted even if, as the lower
courts believed, Algonquin’s holding includes those
statements. While stare decisis considerations often
counsel against overruling previous Court decisions,
those considerations are at a particularly low ebb in
this case. Agostini v. Felton, 521 U.S. 203, 235 (1997)
(stare decisis is at its weakest when the Court is
interpreting the Constitution). The other factors the
Court has traditionally considered in deciding whether
to revisit a precedent—the quality of the decision’s
reasoning, its consistency with related decisions, and
reliance on the decision—also point against mechanical
adherence to precedent. Algonquin’s reasoning was
extremely truncated (perhaps because a delegationdoctrine claim was not included among the questions
presented), it mechanically applied the intelligibleprinciple standard to uphold the statute, and there is
little evidence that the government has relied on the
decision in the ensuing 44 years.
Moreover, Algonquin cautioned that its holding
was “a limited one,” and it suggested that there might
be other limitations on the President’s § 232 authority.

9
426 U.S. at 571. But later cases have not identified
any such limitations; the lower courts’ decisions in this
case demonstrate that they view Algonquin as granting
the President virtually unlimited authority to impose
any tariff that furthers his conception of national
security. Review of that determination is warranted;
given the Federal Circuit’s exclusive jurisdiction over
tariff issues, there is no reason to delay review to
permit further percolation in the lower courts.
REASONS FOR GRANTING THE PETITION
Five justices have expressed a willingness to
reconsider the Court’s standard for reviewing
delegation-doctrine claims. See Gundy, 139 S. Ct. at
2131-32 (Alito, J., concurring in the judgment); id. at
2132-48 (Gorsuch, J., joined by Roberts, C.J., and
Thomas, J., dissenting); Paul v. United States, 140 S.
Ct. 342 (2019) (statement of Kavanaugh, J., respecting
the denial of certiorari). The Petition provides an
extremely attractive vehicle for doing so.
I.

THE COURT SHOULD REVISIT THE REVIEW
STANDARDS IT APPLIES TO CLAIMS ARISING
UNDER THE DELEGATION DOCTRINE
A.

The Prohibition Against Delegation
of Legislative Power Is Universally
Recognized, yet Adherence to the
“Intelligible Principle” Standard
Renders
the
Prohibition
Unenforceable

The Constitution mandates that only the
people’s elected representatives may adopt new federal

10
laws restricting individual liberty. U.S. Const., Art. I,
§ 1 (“All legislative Powers herein granted shall be
vested in a Congress of the United States[.]”)
(emphasis added). The grant of “[a]ll legislative
Powers” to Congress means that Congress may not
transfer to others “powers which are strictly and
exclusively legislative.” Wayman v. Southard, 23 U.S.
(10 Wheat.) 1, 42-43 (1825). And the power to impose
tariffs is inherently legislative. U.S. Const., Art. I, § 8
(“The Congress shall have Power to lay and collect
Taxes, Duties, Imposts, and Excises”); Decl. of
Independence (accusing King George, an executivebranch official, of tyranny for “cutting off our Trade
with all parts of the world”).
The Court has repeatedly stressed the
importance of this Article I Vesting Clause in
maintaining the proper separation of powers among
the three branches of government. Marshall Field, 143
U.S. at 692; J.W. Hampton, Jr., & Co. v. United States,
276 U.S. 394, 406 (1928) (“in carrying out that
constitutional division into three branches it is a
breach of the fundamental law if Congress gives up its
legislative power and transfers it to the President”);
Gundy, 139 S. Ct. at 2123 (plurality). Despite that
understanding, the Court has not invoked the
delegation doctrine to strike down a federal statute for
85 years. See A.L.A. Schecter Poultry Corp. v. United
States, 295 U.S. 495 (1935); Panama Refining Co. v.
Ryan, 293 U.S. 388 (1935).
The absence of such decisions is not the result of
a lack of opportunity; Congress has adopted many
statutes that convey vast decision-making authority to
the Executive Branch. Rather, it is a reflection of the

11
deferential review standard that the Court has applied
to delegation-doctrine claims. The Court rejects such
claims so long as “Congress has supplied an intelligible
principle to guide the delegee’s use of discretion,”
Gundy, 139 S. Ct. at 2123 (plurality), and the Court
broadly construes the term “intelligible principle.”
This lax standard renders the Vesting Clause
unenforceable, in apparent dereliction of the Court’s
duty to uphold the Constitution’s structure.
The Court first employed the term “intelligible
principle” in 1928 in Hampton. In rejecting a
delegation-doctrine challenge to the Tariff Act of 1922,
Chief Justice Taft explained for the Court that “if
Congress shall lay down by legislative act an
intelligible principle to which the person or body
authorized to fix such rates is directed to conform, such
legislative action is not a forbidden delegation of
legislative power.” Hampton, 276 U.S. at 409.
That statement was unexceptionable; it made
clear, in compliance with prior case law, that the
requisite intelligible principle had to spell out rules to
which the administrator must “conform.” And the
tariff statute upheld by the Court imposed strict limits
on the Tariff Commission’s authority to impose
supplemental tariffs. It permitted such tariffs only if
the Commission made a factual finding that costs of
producing the article in the United States were greater
than in the exporting country; provided guidance on
how to determine costs of production; and permitted
supplemental tariffs only in an amount necessary to
compensate for the difference in production costs (and
in no event greater than 50% of the tariffs already
imposed by the statute). Id. at 401. Hampton’s

12
reference to an “intelligible principle” was “just
another way to describe the traditional rule that
Congress may leave the executive the responsibility to
find facts and fill up details.” Gundy, 139 S. Ct. at
2139 (Gorsuch, J., dissenting).
Starting in the late 1940s, however, “intelligible
principle” became the Court’s principal standard
governing delegation-doctrine challenges. See, e.g.,
Lichter v. United States, 334 U.S. 742, 785 (1948).
Moreover, the phrase’s meaning was gradually watered
down—so that “intelligible principle” has come to be
understood as encompassing virtually any statutory
language that directs administrators to consider one or
more factors when determining how to carry out their
duties, even when administrators are afforded
unconstrained discretion to determine what role those
factors should play in their ultimate decisions. See,
e.g., Algonquin, 426 U.S. at 559; David Schoenbrod,
The Delegation Doctrine: Could the Court Give It
Substance?, 83 Mich. L. Rev. 1223, 1231 (1985) (“[T]he
[intelligible-principle] test has become so ephemeral
and elastic as to lose its meaning”).
B.

Review Is Warranted to Consider
Adopting a Standard that Focuses on
Whether a Statute Enables Courts to
Test Executive-Branch Conduct
Against Ascertainable Standards

Given the importance of the Article I, § 1 Vesting
Clause to “the integrity and maintenance of the system
of government ordained by the [C]onstitution,”
Marshall Field, 143 U.S. at 692, the Court’s toothless
intelligible-principle standard warrants re-

13
examination. It may not always be easy to distinguish
between statutes that (on the one hand) authorize
agencies to merely “fill up the details” of legislation,
Wayman, 23 U.S. at 31, or engage in factfinding, Miller
v. Mayor of New York, 109 U.S. 385, 393 (1883), and
(on the other hand) those that delegate Congress’s
legislative authority to agencies. But the intelligibleprinciple doctrine as currently understood abandons
any real effort to make that distinction. It simply
defers to congressional determinations that statutory
authorizations are constitutionally permissible.
Congress has abandoned its powers to the Executive;
this Court should not similarly abandon its
constitutional duties.
One test that would assist the Court in making
those distinctions is one first articulated in 1944 in
Yakus: whether “there is an absence of standards for
the guidance of the Administrator’s action, so that it
would be impossible in a proper proceeding to ascertain
whether the will of Congress has been obeyed.” Yakus,
321 U.S. at 426. The Court has approvingly cited the
Yakus language in several later cases. See, e.g.,
Mistretta v. United States, 488 U.S. 361, 379 (1989);
Gundy, 139 S. Ct. at 2136 (Gorsuch, J., dissenting); see
also, Industrial Union Dept., AFL-CIO v. American
Petroleum Inst., 448 U.S. 607, 686 (1980) (Rehnquist,
J., concurring in the judgment) (delegation doctrine
ensures that courts reviewing an exercise of
administrative action “will be able to test that exercise
against ascertainable standards”).
The Yakus standard is a significant
improvement over the intelligible-principle standard
because it would require the government to explain

14
which actions are authorized under the challenged
statute and which are not. Significantly, the United
States has been unable to point to any tariff that would
be unauthorized under § 232. That is, under the allencompassing standards set out in § 232(d), any set of
facts is sufficient to justify a presidential finding that
a tariff is necessary to prevent impairment of national
security. Accordingly, § 232 is facially unconstitutional
under the Yakus test because the statute provides no
constraints on Executive Branch action and thus no
way to tell “whether the will of Congress has been
obeyed.” 321 U.S. at 426.
In contrast, § 232 passes the intelligibleprinciple test with flying colors. Algonquin stated that
the statute “easily fulfills that test,” pointing to “a
series of specific factors to be considered by the
President in exercising his authority”—without
considering whether those factors impose any
constraints on the President’s choice of tariffs. 426
U.S. at 559. Indeed, the Court of International Trade
invoked the intelligible-principle standard and
Algonquin to reject AIIS’s challenge, despite
acknowledging the absence of any such constraints.
Pet. App. 39-41; see id. at 58 (Katzman, J., concurring
in the judgment) (stating that § 232 “provides virtually
unbridled discretion to the President with respect to
the power over trade” and provides “no guidance ... on
the expansive definition of ‘national security’”).
By granting the Petition, the Court will have the
opportunity to consider whether adopting a more
stringent test to replace the intelligible-principle
standard would better protect separation-of-powers
principles, by enabling courts to guard against

15
divestment of Congress’s tariff-setting responsibilities,
a core legislative power. NCLA submits that the
intelligible-principle standard “has earned its
retirement” and “is best forgotten.” Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 563 (2007).
C.

Reviving
Judicial
Review of
Delegation-Doctrine Claims Will Not
Hamper Government’s Ability to
Operate Effectively

Those opposed to strengthening delegationdoctrine enforcement often contend that modern
governments could not operate effectively if Congress
were barred from authorizing Executive Branch
officials to make policy. That contention not only
ignores important separation-of-powers concerns, see
Gundy, 139 S. Ct. at 2133-35 (Gorsuch, J., dissenting),
but also fails to appreciate that adherence to the
Vesting Clause does not preclude efficient day-to-day
government operations.
The Court has long recognized Congress’s
authority to delegate the task of “fill[ing] up the
details,” so long as Congress itself establishes the
overriding policies. Yakus explained:
[T]he Constitution as a continuously
operative charter of government does not
demand the impossible or the
impracticable. It does not require that
Congress find for itself every fact upon
which it desires to base legislative action
or that it make for itself detailed
determinations which it has declared to

16
be prerequisites to the application of the
legislative policy to particular facts and
circumstances impossible for Congress
itself to properly investigate.
The
essentials of the legislative function are
the determination of the legislative policy
and its formulation and promulgation as
a defined and binding rule of conduct.
Yakus, 321 U.S. at 424.
Hampton cited the statute establishing the
Interstate Commerce Commission as an example of
permissible legislation that complied with the Vesting
Clause. Adopted pursuant to Congress’s Article I
authority to regulate interstate commerce, the statute
directed the federal government to establish
permissible rates to be charged by interstate carriers
of passengers and freight. Because there were
thousands of carriers, “[i]f Congress were to be
required to fix every rate, it would be impossible to
exercise the power at all.” Hampton, 276 U.S. at 407.
The Court explained that Congress could authorize
ratemaking by the commission so long as the
commission operated under rules “laid down by
Congress” that specified in detail how rates were to be
set. Id. at 408.
As Hampton and Marshall Field demonstrate,
there is no reason why similar rate-setting procedures
cannot work effectively with tariffs. Indeed, until the
early 20th century, tariff-setting was performed almost
exclusively by Congress, which routinely adopted
extremely detailed tariff acts. See George Bronz, The
Tariff Commission as a Regulatory Agency, 61 Colum.

17
L. Rev. 463, 464 (1961). Even today Congress
routinely adopts extremely detailed lists of tariff
exemptions. See, e.g., 19 U.S.C. § 3203(b) (specifying
lengthy categories of products designated as either
eligible or ineligible for duty-free import from certain
South American countries).
Nor would adopting a more exacting standard of
review require overruling Court precedents, many of
which would have reached the same result even if they
had not applied the lax intelligible-principle standard.
For example, the war-time price-control statute
challenged in Yakus contained detailed specifications
regarding how government administrators were to
establish prices. 321 U.S. at 419-23. Mistretta rejected
a delegation-doctrine challenge to the Sentencing
Reform Act of 1984 because the Act “sets forth more
than merely an ‘intelligible principle’”; it “explains
what the [Sentencing] Commission should do and how
it should do it, and sets out specific directives to govern
particular situations.” 488 U.S. at 658 (citation
omitted). When it so chooses, Congress has no
difficulty addressing the complexity of modern
government while fully complying with the Vesting
Clause.
II.

THE PETITION IS A PARTICULARLY ATTRACTIVE
VEHICLE FOR RECONSIDERING THE
DELEGATION DOCTRINE

The Petition provides the Court with an
excellent vehicle for considering whether to jettison the
intelligible-principle standard. The choice of review
standards is almost certainly outcome-determinative
in this case. Federal courts have had little difficulty

18
concluding that § 232 passes constitutional muster
under the intelligible-principle standard, yet the
statute would likely be found to violate the Vesting
Clause if examined under a more exacting standard.
On the one hand, § 232(d) lists numerous factors
that the President and Secretary of Commerce must
consider in deciding whether to impose tariffs. They
are to consider those factors “in light of the
requirements of national security and without
excluding other relevant factors.” The statute provides
a detailed and expansive definition of “national
security”:
In the administration of this section, the
Secretary and the President shall further
recognize the close relation of the
economic welfare of the Nation to our
national security, and shall take into
consideration the impact of foreign
competition on the economic welfare of
individual domestic industries; and any
substantial unemployment, decrease in
revenues of government, loss of skills or
investment, or other serious effects
resulting from the displacement of any
domestic products by excessive imports
shall be considered, without excluding
other factors, in determining whether
such weakening of our internal economy
may impair the national security.
19 U.S.C. § 1862(d). The numerous factors that the
Executive Branch is directed to consider certainly
qualify as “intelligible.”

19
On the other hand, § 232 almost certainly flunks
the test articulated in Yakus, a test that asks: whether
standards articulated in § 232 would enable a
reviewing court to determine if a tariff imposed by the
President complies with policy directives specified by
Congress. Courts cannot make that determination
because § 232(d) establishes an unbounded definition
of “national security”—so that a President who states
that he is acting to protect the national security as
defined by the statute cannot be proven wrong. As
interpreted by Yakus, the Vesting Clause prohibits
statutes that authorize the Executive Branch to engage
in such open-ended policy-making.
There are no procedural barriers to the Court’s
consideration of AIIS’s claims.
AIIS raised its
delegation-doctrine claim at all stages of the litigation,
and a facial challenge to § 232 raises no material
issues of disputed fact.
Nor is § 232 susceptible of a saving construction
that would permit AIIS’s claims to be resolved without
addressing the proper standard for evaluating
delegation-doctrine claims.3 Section 232(d) makes
crystal clear that there are virtually no facts that the
President may not rely on in determining that the
import of an article represents a threat to “national

3

In that respect, the Petition differs sharply from Gundy.
In Gundy, the Court construed the statute at issue as imposing
strict limits on the Attorney General’s authority with respect to
registration of convicted sex offenders—and thus avoided any
need to determine precisely when statutes granting authority to
Executive Branch officials cross the line into unconstitutional
delegations of legislative powers. 139 S. Ct. at 2123-24 (plurality).

20
security.” The statute states that “the economic
welfare of the Nation” and “the economic welfare of
individual domestic industries” are largely
synonymous with “national security.”
Thus a
President is authorized to determine that steel imports
are a threat to national security if he determines that
increased competition would hurt the domestic steel
industry. But the President is similarly authorized to
determine that steel imports are not a threat to
national security (and instead to determine that tariffs
on steel imports would be a threat to national security)
if he determines that the automobile industry is helped
by increased steel supply and lower steel prices.
III.

ALGONQUIN IS NOT A BARRIER TO GRANTING
REVIEW

In opposing AIIS’s efforts to persuade the Court
to hear this case, the United States has relied almost
entirely on the Court’s 1976 Algonquin decision. The
United States argues that Algonquin was correctly
decided, that “it is consistent with this Court’s more
recent nondelegation precedents,” and that stare
decisis considerations weigh against granting review.
American Inst. for Int’l Steel, Inc. v. United States, No.
18-1317, cert denied, 139 S. Ct. 2748 (2019) (Brief for
the United States in Opposition).4 Those arguments
are unpersuasive; Algonquin is not a barrier to the
Court’s consideration of AIIS’s claims.

4

Following the Court of International Trade’s decision,
AIIS filed a certiorari petition seeking review before judgment by
the Federal Circuit. This Court denied the petition.

21
NCLA notes initially that AIIS argues
persuasively that Algonquin’s holding is quite
narrow—and that the Court’s statements that § 232
did not violate the Vesting Clause should not be
deemed a part of the Court’s holding. The delegation
doctrine was not an issue Algonquin agreed to review,
nor did the petition raise the claim.5
Rather than challenging § 232 on its face, the
plaintiffs argued that it should be construed to permit
imposition of import quotas but not tariffs. The
plaintiffs raised a constitutional-avoidance argument
in support of their statutory claim, asserting that the
statute would violate the Vesting Clause if it were
construed as authorizing the President to impose
tariffs. In the course of denying the plaintiffs’
statutory claim, the Court rejected the constitutionalavoidance argument—and included statements
indicating that the statute was not subject to a
delegation-doctrine challenge. Algonquin, 426 U.S. at
558-60. The Court’s holding should not be deemed to
include those observations regarding constitutional
law, given that they were made in support of a ruling
on a statutory-construction issue, and the Court never
indicated that it would have construed the statute
more narrowly in the absence of those observations.

5

Algonquin arose in the aftermath of the 1973 Arab oil
embargo, which led to severe gasoline shortages throughout the
United States and increased concern that over-reliance on oil
imports threatened national security by making the entire
economy vulnerable to embargoes orchestrated by foreign
governments. Presidents Nixon and Ford responded by invoking
§ 232 to impose tariffs on imported oil; previously, the statute had
only been used to impose quotas on oil imports.

22
See, Seminole Tribe of Florida v. Florida, 517 U.S. 44,
67 (1996).
But review is warranted even if Algonquin’s
“holding” is properly interpreted as including its
statements on the constitutionality of § 232. Stare
decisis considerations are not a barrier to granting
review; for a variety of reasons, stare decisis should not
deter the Court from overruling Algonquin if it decides
that case was wrongly decided.
The Court has identified several factors to
consider in deciding whether to overrule past decisions.
The stare decisis doctrine—which weighs in favor of
adhering to a decision despite its errors—is at its
weakest when, as in Algonquin, the Court interprets
the Constitution, because a mistaken constitutional
interpretation is “practically impossible” to correct
through other means. Payne v. Tennessee, 501 U.S.
808, 828 (1991).
Other factors the Court has
considered include the quality of the precedent’s
reasoning, the workability of the rule it established,
and reliance on the decision. Knick v. Township of
Scott, 139 S. Ct. 2162, 2178 (2019). Each of these
factors counsels in favor of overruling Algonquin.
Algonquin was wrongly decided, for all the
reasons cited above. More importantly, its discussion
of the delegation doctrine was extremely truncated
(perhaps because a delegation-doctrine claim was not
included among the questions presented), and the
quality of its reasoning was exceptionally weak. It
stated, “we see no looming problem of improper
delegation,” explaining:

23
[T]he leeway that the statute gives the
President in deciding what action to take
in the event that the preconditions are
fulfilled is far from unbounded. The
President can act only to the extent “he
deems necessary to adjust the imports of
such articles and its derivatives so that
such imports will not threaten to impair
the national security.” And § 232(c) [now
§ 232(d)] articulates a series of factors to
be considered by the President in
exercising his authority.
Id. at 559-60. But the Court failed to explain how the
statute imposed any constraints on the President’s
decision-making—a particularly glaring omission given
the statute’s expansive definition of “national security”
and given that § 232(d)’s “series of factors to be
considered” is so broad that it grants the President
unlimited discretion.
The “unworkability” of the rule established by
Algonquin also counsels against adherence to the
decision. Given the paramount importance of the
Vesting Clause to the separation-of-powers principles
at the heart of the Constitution’s design, a rule
governing such constitutional claims ought to provide
courts with a clear and judicially administrable
method of distinguishing legislation that violates the
Vesting Clause from legislation that does not.
Algonquin provides no such clarity. The only lesson to
be drawn from reading the decision is that because
“necessities” often make it “unreasonable and
impracticable to compel Congress to prescribe detailed

24
rules,” id. at 560 (citation omitted), the Court prefers
to stay out of Vesting Clause disputes.
Finally, there is little evidence that anyone has
ever relied on Algonquin. It is rarely cited. The
United States has invoked § 232 to impose restrictions
on imports no more than five times since its
enactment, and never between the early 1980s and the
2018 steel-import restrictions imposed in this case.
Other regularly utilized federal statutes authorize
tariffs on steel and other imports, so a decision striking
down § 232 would not leave the United States without
means of addressing trade concerns. Besides, the most
important reliance considerations at issue here are
“the reliance interests of the American people” in the
enforcement of the U.S. Constitution. Ramos v.
Louisiana, 590 U.S. ___, 2020 WL 1906545 at *14 (Apr.
20, 2020). The cost of adhering to Algonquin is denial
to the American people in perpetuity of the
constitutional protections afforded to them by the
Founders when they adopted the Vesting Clause. And
that is far too high a price to pay.
CONCLUSION
The Framers believed that “the new federal
government’s most dangerous power was the power to
enact laws restricting the people’s liberty,” Gundy, 139
S. Ct. at 2135 (Gorsuch, dissenting), and that “there
can be no liberty where the legislative and executive
powers are united in the same person.” The Federalist
No. 47, p. 302 (C. Rossiter ed. 1961) (Madison). To
guard against the unification of those powers, the
Framers vested all of the legislative power in
Congress, and they vested executive power in a

25
President who is not part of the legislative branch.
U.S. Const., Arts. I & II. But “[t]he framers knew, too,
that the job of keeping the legislative power confined
to the legislative branch couldn’t be trusted to selfpolicing by Congress; often enough, legislators will face
rational incentives to pass problems to the executive
branch.” Gundy, 139 S. Ct. at 2135 (Gorsuch, J.,
dissenting). Unless the federal courts are willing to
carefully examine claims that Congress has improperly
delegated its legislative power, there will be no one to
safeguard our constitutional structure.
The Court should grant the Petition.
Respectfully submitted,
Richard A. Samp
(Counsel of Record)
John J. Vecchione
NEW CIVIL LIBERTIES ALLIANCE
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
rich.samp@ncla.legal
Dated: April 27, 2020

